Case No.

20-1022

THE SUPREME COURT
OF THE UNITED
STATES
Jean Coulter, Petitioner
v.
JAMSAN Hotel Management, Inc. & others,
Respondents

On Petition for Certiorari
to the Supreme Judicial Court of
Massachusetts

Petition for Reconsideration of
Denial of Writ of Certiorari
■?

Jean Coulter, Petitioner
620 Butler Crossing #3
PMB 172
Butler, Pennsylvania 16001
412-616-9505
jeanecoulter@yahoo.com

Reconsideration of the denial of Coulter’s
Petition for Certiorari is required as the pendulum is
again swinging - and the nation is once again
demanding that all members of the Justice
System be forced to accept full responsibility
for all of their improper acts.
Indeed, April 2021 has become a pivotal time
in this country. And, with this Petition for
Reconsideration, This Honorable Court has been
given the opportunity to step forward to require that
all Jurists (both state and federal) also accept their
proper role in a Society which demands that all of the
Members of the Justice System conform to the laws.
The time is coming (hopefully very soon) when this
country will no longer have to accept that certain
classes of people are going to be treated as being
“above the law” - and headlines in the News both
today (April 21, 2021) and earlier this month, are
proof that that day is coming sooner than many
would have believed even just a few months ago!
Argument for Reconsideration
The Instant Matter concerns an “older” woman
who was subjected to abuses, first by employees of a
“budget” hotel, then by the members of the
Lexington, Massachusetts Police Department who
eventually joined them - all of whom chose to become
part of a plan to violate Coulter’s Rights, simply so
the hotelier could rent Coulter’s room to a member of
a tour group who would not otherwise have been
accommodated in the same buildings as their fellow
travelers. And, the abuse of Coulter continued as the
more respected/ more educated/more highly paid
members of the “Justice System” (lawyers and
judges) also consciously made the decision to take
actions, themselves, which were also intended solely
to protect those officers both in the court of public
1.

opinion as well as inside the courtrooms of the
Commonwealth of Massachusetts.
Indeed, it is within the courthouse that
the insidious nature of this coterie truly
becomes evident - as the officers’ crimes were
quickly “swept under the rug” inside the
courthouse (just as they had been when Coulter
attempted to have them disciplined by their
superiors in the Police Department) - all done in
the name of “unity” behind the “Thin Blue
Line”.
So, it is therefore particularly fitting that the
actions by the hoteliers in coordination with the local
“Law Enforcement” should be brought before This
Court, at this time, as this Matter is yet another
example of what has been happening recently in as
Missouri well as in Massachusetts, and indeed, in
cities and towns all over this country.
Abuses bv the Justice System in Massachusetts
Beyond the Instant Matter
Earlier this month, the Boston Globe printed
the first of several stories all of which highlight the
horrible history of abuses which were initially
inflicted bv a single patrolman on Boston’s Police
Force. Patrolman Patrick Rose. But Patrick Rose’s
actions never could have continued long
enough for Rose to find new victims among the
children of one of the first victims - had Rose
not been aided by other members of both his
department as well as the rest of the “Justice
System” in Massachusetts! The fact that this new
generation of Rose’s victims even exists, would never
have been possible had it not been for the
coordinated effort of members of his profession along

2.

with the assistance of the rest of the state’s “Justice
System” :
“Police Union President, Now Charged with
Abusing 6 Kids, Kept Badge Despite Internal
Affairs Determining He Broke Law in 1995
Case” (emphasis added) (lawandcrime.com,
Alberto Luperon, Apr 11th, 2021, 1:19 pm)
As the articles about Patrolman Rose continue, they
explain that Rose eventually became a leading voice
in the fight against body cameras for police officers :
“As union president, Rose helped patrol
officers win a new contract and led a fight
against officers wearing body cameras.”
(By Andrew Ryan, Globe Staff, Updated April
10, 2021, 5:38 p.m.)
And Rose’s interest in keeping cameras from
recording the actions by police officers is
clearly related to the fact that the courthouses
throughout this country also almost
universally prohibit any form of recording and
real-time transmission of the record of the
events - as this secrecy is an essential
component of the continuing abuses by the
Members of the Justice System (including
lawyers and judges).
As Coulter has explained in her Petition for
Certiorari, the “pervasive bias” (which Coulter
argued exists in all levels of the state and federal
courts), requires that there can be no solid, physical
evidence of the crimes which could be independently
reviewed and confirmed bv the Public. Indeed, it is
readily apparent that when Coulter argued that the
“secret-handshake had been invoked” (page 25,
Petition for Cert) she did so in order to provide
evidence to This Honorable Court that you must also
act in order to end the cover-ups which have so
3.

frequently permitted the Derek Chauvins and
Patrick Roses to remain free in civilized society. But,
thus far, the jurists in the state’s appellate court
have continued to also be “shielded”, as This Court
has refused to “call-out” those jurist(s) who
repeated the fabricated “fact” that Coulter was
forcibly removed from the hotel ostensibly
because of abuse of the advertised “ondemand” shuttle service, by merely attempting
to use it twice within the first ten (10) days of
her scheduled six (6) week stay!:
“[Coulter] was removed from her room based
on extensive use of the hotel's complementary
shuttle service.”
There is no where in Coulter’s Complaint where it is
ever even imp bed that Coulter had “extensively]
use[d] the hotel’s complementary shuttle service” —
or that even if she had, that the laws of
Massachusetts would permit that Coulter be
removed from the hotel even if it had occurred.
Indeed, the Petition for Certiorari instead explains
that this Decision was exclusively the result of
Pervasive Bias, favoring “Justice System” defendants.
As Coulter’s filings have repeatedly pointed
out — and Coulter is certain that This Honorable
Court is also well aware, hoteliers are not permitted
to forcibly remove a guest for something as trivial as
attempting to use the advertised shuttle service on
two separate occasions (a week apart). And, Coulter’s
petition for Certiorari even includes copies of the
pertinent State Statutes which concern this
requirement of any hotelier. As explained in
Sections 5. 7 and 12C of Chapter 140 (Appendix
of Petition for Certiorari, pages 32a. — 35a.), when
read together, require that the hotelier cannot refuse

4.

accommodations, and even imposes a fine any time
that the hotel does this :
Section 5. Every innholder and every common
victualler shall at all times be provided with
suitable food for strangers and travelers.
Every innholder shall also have upon his
premises suitable rooms, with beds and
bedding, for the lodging of his guests.
and
Section 7. An innholder who, upon request,
refuses to receive and make suitable provision
for a stranger or traveler shall be punished by
a fine of nor more than fifty dollars.
So, the hoteliers in Massachusetts (and elsewhere)
are required to accommodate guests, except as
explained in Section 12C of Chanter 140 of the
state’s statutes, which explains that a guest can be
removed for only a very limited set of circumstances
— none of which applied in any manner:
(a.) refuses to pay or is unable to pay, or
(b.) acts in an obviously intoxicated or
disorderly manner, or
(c.)
destroys or threatens to destroy hotel
property, or
(d.) causes or threatens to cause a
disturbance
While Coulter did not include a copy of the text of
Chanter 140. Section 12B. that section includes
one additional reason why a guest might be able to
be removed from the hotel — but no one ever
asserted that it applies — that is until the State Court
apparently “pulled it out of his hat”, so that judge
could “justify” his decision to rule in favor of the
Police Defendants and their co-conspirators (and
therefore against Coulter) Indeed, Section 12 B
permits removal of a guest who :
5.

(e.) violates a rule of the hotel that is clearly
and conspicuously posted at or near the front
desk and on the inside of the entrance door of
every guest room.
However, this “argument” was never asserted hv anv
of the Defendants, but instead was only developed bv
a Jurist who was clearly attempting to provide a
plausible excuse for what was so clearly an attempt
to “assist” other members of the Justice System who
had been discovered to be part of a criminal
conspiracy against Coulter. It should also be noted
that the reason that none of the defendants’ lawyers
ever asserted that Section 12 B would apply — is
because the only locations which even mention the
shuttle service are on the hotel’s website, and that
location only explains that the shuttle is on demand,
and only available during certain hours.
Pervasive Bias Favoring Members of the Justice
System is Not Limited to Massachusetts and is
Not Limited to Civil Cases
Of course, Patrick Rose is not the only member
of the Justice System who has recently been in the
news. Even more infamous are the actions of Officer
Derek Chauvin and his “fellow officers” in
Minnesota. While only Chauvin has been put on
trial thus far, it is clear that the time for the “Thin
Blue Line to unconditionally provide complete
protection to members of Law Enforcement has
passed — and the time is also long past due, for the
rest of the “Justice System” to also be held
accountable for behaviors which are not considered to
be acceptable for the general public.
Recently the news has been looking at the
number of people who are killed each day by police
officers. In fact, every day between the
6.

commencement of the murder trial for Derek
Chauvin’s murder of George Floyd (on March
29, 2021), until the date of the article (April 17,
2021) - THREE (3) people died each day at the
hands of Law Enforcement in this country!
And that number is only sliehtlv higher than
the average has been for at least the past five
(5) yearsl
The New York Times published an article by
John Eligon and Shawn Hubler on April 17, 2021,
which describes the killing of a child, at the hands of
a Chicago Police officer in the hours just before the
trial in the death of George Floyd began:
“...a Chicago officer chased down a 13-yearold boy in a West Side alley and fatally shot
him as he turned with his hands up.”
And, the article continues to explain that gender,
skin color and age certainly appear to be major
factors in which encounters with police will turn
lethal:
“Nearly all of the victims since March 29 have
been men... Black or Latino people
substantially overrepresented - a pattern that
reflects broader criminal justice research. And
most were under 30. Four were teenagers....”
So, while prejudice would “explain” (to some limited
extend) how a certain portion of actions which
resulted in the deaths began, it is hard to contribute
the deaths of children (young teenagers) exclusively
to those prejudices.
Further, the article explains that only a tiny
portion, slightly over one percent (1.1%) of the deaths
at the hands of police are ever prosecuted as murder
or manslaughter — and it is this statistic which This
Court must consider at this time. The article
explains that Philip Stinson, a criminal justice
7.

professor at Bowling Green State University believes
that the problem with obtaining prosecutions is
because the legal system and laws themselves
give to much deference to the police. In my
opinion this admitted deference in court cases exists
exclusively to maintain the status quo in all of the
courts. Indeed, when a Lower Court has improperly
given weight to argument or evidence or even
fabricated that argument from the bench, higher
courts typically continue to give deference to that
determination is completely irresponsible. Further,
the professor and I also agree that status quo is
intended to (and does) protect “more than 18,000 law
enforcement agencies across the country”, to which I
add, protects as well as all of the numerous Judges
and Lawyers.
What is crucial for This Honorable Court
to consider though, is that shockingly large
numbers of those individuals in the Justice
System who consciously, and even willfully, do
not follow the “rules” simply because they
know that they can get away with it... not
because they were over-taken by stress or
unaware of the totality of the circumstances,
but simply because they knew that they would
never be required to answer for their actions!
That is why I am asking This Honorable Court to
reconsider denial of Certiorari —and require that
Defendants prove that they were acting in the
manner that they know to he required by the law
instead of the manner in which they believe they
would “get away with”.
Respectfully Submitted,
Jean Coulter

8.

